Lisa M. Lawless
Senior Counsel
511 North Broadway, Suite 1100
Milwaukee, WI 53202
Direct: 414.978.5438
Fax: 414.223.5000
lisa.lawless@huschblackwell.com

December 16, 2020

VIA U.S. MAIL and E-FILING
Scott S. Harris
Clerk, U.S. Supreme Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543-0001
Re:

Eagle Cove Camp & Conference Center, Inc. v. Jaros, et al., Appeal No. 20-694

Dear Mr. Harris:
Plaintiffs-Appellants-Petitioners Eagle Cove Camp & Conference Center, Inc., et al. have
filed a petition for a writ of certiorari from the decision of the Court of Appeals of Wisconsin,
Appeal No. 18AP940, 2019 W.L. 6121352 (November 19, 2019), petition for review denied by
Wisconsin Supreme Court (June 16, 2020).
In view of the fact that this case does not warrant review by this Court (as shown by the
opinion below), Defendant-Respondent Oneida County waives the right to file a brief in
opposition to the petition for a writ of certiorari. Should the Court wish to see a response to the
petition, Defendant-Respondent Oneida County seeks leave to file a response if the Court wishes
to receive a response.
Very truly yours,
HUSCH BLACKWELL LLP
s/ Lisa M. Lawless
Lisa M. Lawless
Encl.
cc:
Arthur G. Jaros, Jr., Esq. (w/encl.)

HB: 4840-1873-2499.1

Husch Blackwell LLP

